HHS/OIG, Audit -"Audit of Selected Procurements by Centers for Disease Control
and Prevention Under Contract 200-2005-11532 GlaxoSmithKline,"(A-04-06-01028)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Selected Procurements by Centers
for Disease Control and Prevention Under Contract 200-2005-11532 GlaxoSmithKline," (A-04-06-01028)
June 15, 2006
Complete
Text of Report is available in PDF format (632 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
As part of the Inspector General's broad evaluation of procurements by departmental components
during relief operations following Hurricanes Katrina and Rita, we audited selected procurements
under Centers for Disease Control and Prevention (CDC) contract 200-2005-11532 with GlaxoSmithKline
(GSK).  Our objectives were to determine whether CDC complied with the Federal Acquisition
Regulation (FAR) while making the involved procurements and accurately computed amounts charged
to the Federal Emergency Management Agency (FEMA) based on the actual costs incurred.  We
found that CDC complied with applicable parts of the FAR while issuing two delivery orders
to GSK for emergency shipments of vaccines to the Louisiana Department of Health and Hospitals
and the Mississippi Department of Health, and that CDC's claims for reimbursement from FEMA
accurately reflected the actual costs incurred.